APPENDIX
A

I

I

USCA11 Case: 20-12939

D(<a©fF2))3d: 07/07/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12939-GG
ZIAHONNA TEAGAN,
Plaintiff - Appellant,
versus
THE CITY OF MCDONOUGH, GEORGIA,
Defendant - Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
ON PETITIONS FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, GRANT, and LUCK, Circuit Judges.
1

PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

USCA11 Case: 20-12939

pjftelRtyBd: 07/16/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 20-12939
District Court Docket No.
1:15-cv-00607-ELR
ZIAHONNA TEAGAN,
Plaintiff - Appellant,
versus
STATE OF GEORGIA, MCDONOUGH CITY, et al.,
Defendants,
THE CITY OF MCDONOUGH, GEORGIA,
Defendant - Appellee.

Appeal from the United States District Court for the
Northern District of Georgia
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: May 19, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 07/16/2021

APPENDIX
1

»

l

USCA11 Case: 20-12939

D@t©ff9)3d: 05/19/2021

Page: 1 of 7

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12939
Non-Argument Calendar
D.C. Docket No. l:15-cv-00607-ELR

ZIAHONNA TEAGAN,
Plaintiff - Appellant,
versus
THE CITY OF MCDONOUGH, GEORGIA,
Defendant - Appellee.

Appeal from the United States District Court
for the Northern District of Georgia
(May 19, 2021)
Before JORDAN, GRANT, and LUCK, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-12939

D(2t©ff9l)3d: 05/19/2021

Page: 2 of 7

Ziahonna Teagan, proceeding pro se, appeals the district court’s order
granting the City of McDonough’s motion for summary judgment and denying her
own motion for partial summary judgment. After careful review of the parties’ briefs
and the record, we affirm.
I
On November 7, 2013, Ms. Teagan was ticketed by a city police officer in
McDonough, Georgia for failing to maintain insurance while driving. The offense
was committed within the city limits of McDonough, so Ms. Teagan was ordered
to appear before the City of McDonough Municipal Court. At her arraignment,
when asked how she wanted to plead to her offense, Ms. Teagan requested a bench
trial, and the Municipal Court interpreted her response as a not guilty plea. Ms.
Teagan’s case was set for a bench trial before Municipal Court Judge W. Donald
Patten. On March 19, 2014, Ms. Teagan was found guilty of failing to maintain
insurance. Judge Patten sentenced her to serve 60 days in jail, suspended upon the
condition that she pay $795 by March 28,2014.
On March 24, 2014, Ms. Teagan filed a motion for stay pending appeal with
the Municipal Court, or alternatively, a delay of the sentencing order. Judge Patten
found the motion to be invalid, and effectively denied it. Ms. Teagan did not pay
her fine by the deadline, and a deputy clerk of court issued an arrest warrant. In
May of 2014, Ms. Teagan was arrested and incarcerated at the Henry County Jail.
2

USCA11 Case: 20-12939

P^teff9)9d: 05/19/2021

Page: 3 of 7

In March of 2015, Ms. Teagan, proceeding pro se, filed an action against the
City in federal district court. In March 2017 with counsel, Ms. Teagan filed her
third amended complaint, which was the operative complaint when discovery
ended. She asserted five 42 U.S.C. § 1983 claims against the City, a state law claim
for false imprisonment, and a request for attorneys’ fees under 42 U.S.C. § 1988.
After discovery concluded, the City filed a motion for summary judgment on
all of Ms. Teagan’s claims, and Ms. Teagan filed a motion for partial summary
judgment as to her false imprisonment claim. The district court granted summary
judgment to the City and denied Ms. Teagan’s motion, finding that the actions of the
Municipal Court could not be attributed to the City, and it would therefore have
been improper to impose § 1983 municipal liability. In a footnote, the district court
stated that because of the inability to impose liability on the City, it need not address
any other arguments, and therefore never considered Ms. Teagan’s false
imprisonment claim. Ms. Teagan filed a timely notice of appeal.
On appeal, we affirmed the district court’s order granting the City summary
judgment in connection with all of the federal claims. See Teagan v. City of
McDonough, 949 F.3d 670, 672 (11th Cir. 2020). However, as to the false
imprisonment claim, we concluded that the district court erred in not separately
addressing that claim and remanded for further proceedings. Id. at 679.
On remand, Ms. Teagan submitted a supplemental brief arguing that Georgia
3

USCA11 Case: 20-12939

D@L<&mp6: 05/19/2021

Page: 4 of 7

law did not require Judge Patten to be a final policymaker to impose liability under
state law. She argued that, based on Bunyon v. Burke County, 285 F. Supp.2d 1310
(S.D. Ga. 2003), the proper inquiry was whether the official responsible for her
incarceration was acting for the City. She further argued that the City was liable
for Judge Patten’s actions because the City hired him, and it was in furtherance of
the City’s interests that she was arrested and incarcerated.
The City responded and argued that Judge Patten acted pursuant to his
limited state judicial authority, not the authority provided to him by the City. Thus,
the City further argued that because Judge Patten was not acting as an employee of
the City and the City had no control over his judicial decisions, the City could not
be held liable for his actions.
The district court concluded that the warrant that Judge Patten issued for Ms.
Teagan’s arrest was not valid because it authorized her arrest for failure to pay a
fine without determining whether the failure to pay was willful. In addition, the
district court found that a warrant rooted in unconstitutional grounds is void, as was
the case here, because Judge Patten was not authorized by either the United States
Constitution or the Georgia Constitution to issue the warrant. The district court
recognized that Ms. Teagan had a cognizable claim of false imprisonment
against a proper defendant, but concluded that the City was not the proper
defendant because Judge Patten’s authority derived from the State of
4

USCA11 Case: 20-12939

D(<S©frai)3d: 05/19/2021

Page: 5 of 7

Georgia, not the City. Ms. Teagan filed a timely notice of appeal, which she later
amended.
II
A
On appeal, Ms. Teagan argues that the district court erred in ruling that Judge
Patten was acting on behalf of the State of Georgia and not the City. She contends
that the district court erred in assuming that the City had judicial immunity from
liability. She also asserts that the doctrine of vicarious liability applies because
municipal courts derive their authority from the state government. Further, she
claims that the doctrine of qualified immunity does not apply because her
constitutional rights were violated, and her rights were established at the time of her
arrest. The City, she maintains, abused its power by running a “debtors prison”
through its Municipal Court. Ms. Teagan also argues that Judge Patten issued the
warrant in defiance of the jurisdictional limits of his authority. Finally, Ms. Teagan
claims that the City waived its “government immunity” from suit by allowing the
negligence of its employees at the Municipal Court to occur.
The City responds that no Georgia appellate decision has held a municipality
vicariously liable based on judicial actions undertaken by a municipal court judge.
It argues that it cannot be held liable for Judge Patten’s actions because he derived
his authority from the State of Georgia and was not acting as an employee or agent
5

USCA11 Case: 20-12939

D(«t©ffg^d: 05/19/2021

Page: 6 of 7

for the City when he directed the clerk of court to issue an arrest warrant for Ms.
Teagan.
B
Summary judgment is appropriate when the evidence, viewed in the light most
favorable to the nonmoving party, presents no genuine dispute as to any material
fact and compels judgment as a matter of law. See Fed. R. Civ. P. 56(a); Holloman
v. Mail-Well Corp., 443 F.3d 832, 836 (11th Cir. 2006). “Pro se pleadings are held
to a less stringent standard than pleadings drafted by attorneys and will, therefore,
be liberally construed.” Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th
Cir. 1998).
We have held that a county or municipal court judge acts on behalf of the
state, and not on behalf of the municipality, when he engages injudicial acts for the
purpose of applying or enforcing state law. See Lucas v. O Loughlin, 831 F.2d 232,
235 (11th Cir. 1987). The Georgia Supreme Court has held that, following the
ratification of the 1983 Georgia Constitution, the Georgia General Assembly enacted
legislation vesting municipal courts with jurisdiction over various misdemeanor
offenses under state law. See Kolker v. State, 391 S.E.2d 391, 393 (Ga. 1990).
Specifically, one of the misdemeanor offenses the General Assembly gave a
municipal court jurisdiction over was operating a motor vehicle without insurance.
See id.
6

USCA11 Case: 20-12939

D(#t©irai^d: 05/19/2021

Page: 7 of 7

Here, the district court did not err when it granted the City’s motion for
summary judgment and denied Ms. Teagan’s partial motion for summary judgment.
Under Georgia law and our precedent, Judge Patten acted on behalf of the State of
Georgia when he presided over Ms. Teagan’s case because she was charged with
operating a motor vehicle without insurance, a state-law misdemeanor. See Lucas,
831 F.2d at 235; Kolker, 391 S.E.2d at 393. The City cannot be held liable for
Judge Patten’s actions because he acted on behalf of the state.

in
The district court’s grant of summary judgment to the City is affirmed.
AFFIRMED.

7

USCA11 Case: 20-12939

Ep©ff9l)ed: 05/19/2021

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Cleric of Court

May 19, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-12939-GG
Case Style: Ziahonna Teagan v. The City of McDonough, Georgia
District Court Docket No: 1:15-cv-00607-ELR
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.calt.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal.
Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a
later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for
filing a petition for rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise
provided by FRAP 25(a) for inmate filings, a petition for rehearing or for rehearing en banc is
timely only if received in the clerk's office within the time specified in the rules. Costs are
governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for
attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested
Persons a complete list of all persons and entities listed on all certificates previously filed by
any party in the appeal. See 11th Cir. R. 26.1-1. In addition, a copy of the opinion sought to be
reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming
compensation for time spent on the appeal no later than 60 days after either issuance of mandate
or filing with the U.S. Supreme Court of a petition for writ of certiorari (whichever is later) via
the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@cal Luscourts.gov for questions regarding CJA vouchers or the eVoucher
system.
For questions concerning the issuance of the decision of this court, please call the number
referenced in the signature block below. For all other questions, please call Joseph Caruso, GG

USCA11 Case: 20-12939

Dfftefgjxl: 05/19/2021

Page: 2 of 2

at (4041 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone#: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 1 of 17

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
*

ZIAHONNA C. TEAGAN,

*
*

Plaintiff,

*
*

v.

1:15-CV-00607-ELR

*

city of McDonough, Georgia

*
*

Defendant.

*
*

ORDER

This case is before the Court on limited remand from the Eleventh Circuit
Court of Appeals to address Plaintiff Ziahonna Teagan’s claim against Defendant
City of McDonough, Georgia for false imprisonment. The Court’s rulings and
conclusions are set forth below.
I.

Background
This case arises out of Plaintiffs arrest and imprisonment following her non­

payment of a traffic ticket fine imposed by the Municipal Court of McDonough,
Georgia. On November 7, 2013, a police officer ticketed Plaintiff for failure to
maintain insurance. See O.C.G.A § 40-6-10; PL’s Statement of Undisputed Material
Facts K 1 [Doc. 74] (“Pi.’s SOMF”); Def’s Statement of Material Facts K 2 [Doc.
71-2] (“Def.’s SOMF”). On March 19, 2014, Plaintiff appeared before Municipal

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 3 of 17

Def.’s SOMF

47^8. On May 18, 2014, pursuant to the warrant executed by

Judge Patten, a Henry County Sheriffs deputy arrested Plaintiff and took her to the
Henry County Jail. PL’s SOMF f 41; Def.’s SOMF % 49. On May 28, 2014, ten
(10) days later, Plaintiff appeared before Judge Patten and explained she was unable
to pay the fine because she lost her job in February 2014. PL’s SOMF f 72; Def.’s
SOMF

14-15. That same day, Judge Patten explained to Plaintiff that she would

serve the remainder of her 60-day jail sentence. PL’s SOMF K 75; Def.’s SOMF
H 57. On May 30, 2014, using their government benefits and rent money, Plaintiff s
family paid the fine and Plaintiff was released from the Henry County Jail. PL’s
SOMF im 76-79; Def.’s SOMF K 59.
II.

Procedural History
Plaintiff commenced this action against Defendant City of McDonough on

March 2, 2015. Compl. [Doc. 3].1 On March 27, 2017, Plaintiff filed her Third
Amended Complaint against Defendant, which governs this case. Third Am. Compl.
[Doc. 62]. Plaintiff therein asserted seven (7) Counts against Defendant:
Count I — 42U.S.C. § 1983, Violation of Due Process and Equal
Protection Clauses of the Fourteenth Amendment for jailing
Plaintiff without determining whether she willfully failed to pay
the fine
Count II — 42 U.S.C. § 1983, Violation of Sixth and Fourteenth
Amendments for failure to provide counsel

1 Plaintiff originally named Judge Patten as a co-Defendant in this action, but the Court
subsequently dismissed him as a Party pursuant to judicial immunity. See Compl.; [Doc. 7].
3

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 5 of 17

on this claim. [Doc. 116]. Having been fully briefed, the matter is ripe for the
Court’s review.
III.

Legal Standard
The Court may grant summary judgment only if the record shows “that there

is no genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.” FED. R. Crv. P. 56(a). A factual dispute is genuine if there is
sufficient evidence for a reasonable juiy to return a verdict in favor of the
non-moving party. See Anderson v. Liberty Lobby, Inc.. 477 U.S. 242, 248 (1986).
A factual dispute is material if resolving the factual issue might change the suit’s
outcome pursuant to the governing law. Id. The motion should be granted only if
no rational fact finder could return a verdict in favor of the non-moving party. Id. at
249.
When ruling on a motion for summary judgment, the Court must view all the
evidence in the record in the light most favorable to the non-moving party and
resolve all factual disputes in the non-moving party’s favor.

See Reeves v.

Sanderson Plumbing Prods., Inc., 530 U.S. 133,150 (2000). The moving party need
not positively disprove the opponent’s case; rather, the moving party must establish
the lack of evidentiary support for the non-moving party’s position. See Celotex
Corp. v. Catrett 477 U.S. 317, 325 (1986). If the moving party meets this initial
burden, the non-moving party must then present competent evidence beyond the
5

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 7 of 17

properly issued” by Chief Judge Patten. See Appellee’s Br. at 29 (citing
Carruth v. Roberts, 375 S.E.2d 499, 501-02 (Ga. Ct. App. 1988)).. ..
Ms. Teagan contends that the City, through Chief Judge Patten,
committed the tort of false imprisonment when it arrested her on a
facially invalid warrant and without a finding that she had willfully
failed to pay the fine. See Appellant’s Br. at 29—30. For example, she
asserts that there is no such thing as an offense for “failure to pay a
fine” under state law or under the City’s ordinances. See id. at 29. And
if there was no such offense, she continues, there could not be any
probable cause for her arrest. See id. Because there are some Georgia
cases suggesting that the invalidity of a warrant may permit a false
imprisonment claim, we think it is best for the district court to consider
that claim in the first instance.
[Id.] (emphasis added). Thus, to determine if a genuine dispute of material fact
remains as to Plaintiffs false imprisonment claim, the Court must answer two
questions: (1) whether the underlying warrant was valid; and (2) if not, whether this
allows Plaintiffs state-law false imprisonment claim to survive summary judgment.
The Court addresses these questions in turn.
A.

Validity of the Underlying Warrant

The Court first considers whether the warrant issued by Municipal Court
Chief Judge Patten was valid. According to Georgia law, if a plaintiff is arrested or
detained pursuant to a “procedurally valid process[J” the arrest and/or detention are
considered lawful, and “false imprisonment is not an available remedy, regardless
of the motives upon which the process was secured” or “how unfounded the
imprisonment may be.” Ridgeview Inst., 481 S.E.2d at 533 (internal quotation
omitted) (emphasis in original). In contrast, “[a]n action for false imprisonment will
7

d

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 9 of 17

affidavit and determined that probable cause existed and executed and
issued the warrant for [P]laintiff s arrest on April 25, 2014[J based on
[P]laintiff s failure to comply with his March 19th order[.]
Def.’s SOMF

47^18 (citations omitted). By a plain reading of Defendant’s

statement of material facts, Judge Patten’s “March 19th order” was for Plaintiff to
pay the fine associated with her state-law traffic ticket. Therefore, the warrant Judge
Patten signed was admittedly based on Plaintiffs failure to pay the fine.
The Court finds the warrant fails as a matter of law for two (2) reasons. First,
as discussed by Judge Jordan in his concurrence with the opinion of the Eleventh
Circuit on this matter, the warrant permitted the unconstitutional arrest and detention
of Plaintiff “for failing to pay a fine without determining whether her failure to pay
was willful.” [Doc. 108 at 22]. As Judge Jordan explains, a decades-long line of
U.S. Supreme Court decisions led this Circuit to adopt “the principle that
imprisonment solely because of indigent status is invidious discrimination and not
constitutionally permissible.” Pugh v. Rainwater, 572 F.2d 1053, 1056 (5th Cir.
1978);2 see also Bearden v. Georgia, 461 U.S. 660, 667-68 (1983) (“[I]f the State
determines a fine or restitution to be the appropriate and adequate penalty for the
crime, it may not thereafter imprison a person solely because he lacked the resources
to pay it.”); Tate v. Short, 401 U.S. 395, 397-98 (1971) (noting that “imprisonment
2 Decisions by the former Fifth Circuit issued before October 1,1981, are binding as precedent in
the Eleventh Circuit. See Bonner v. City of Prichard. Ala.. 661 F.2d 1206, 1207 (11th Cir.
1981) (en banc).
9

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 11 of 17

E.g.. Walker v. City of Calhoun, 901 F.3d 1245, 1259 (11th Cir. 2018) (applying
Bearden and Pugh); Massey v. Meadows, 321 S.E.2d 703, 704 (Ga. 1984) (“[A]
defendant’s probation may not be revoked or withheld because of his failure to pay
the fine without a showing of willfulness on his part or inadequacy of alternative
punishments.”); Gaither v. Inman, 322 S.E.2d 242, 243 (Ga. 1984) (expressly
following the guidance of Bearden and Massey, a trial court’s sentence of an indigent
defendant for failure to pay fines was “unconstitutional” because the court failed to
conduct “a hearing to inquire into [defendant’s] ability to pay the fine or the
adequacy of alternative punishment”).
As Judge Jordan additionally notes, “Georgia’s own constitution bans
debtors’ prisons.” [Doc. 108 at 24] (collecting cases arid citing Ga. Const, art. 1,
§ 1, para. XXIII). Further, “long-standing Georgia precedent makes clear that
municipal courts cannot use imprisonment to coerce the payment of a fine.” [Id. at
25] (citing Brieswick v. City of Brunswick. 51 Ga. 639, 642-43 (1874)).
In sum, the United States Supreme Court, the Eleventh Circuit, the Georgia
Constitution, and the long-standing precedent of the Georgia Supreme Court all
support the finding that what happened to Plaintiff was unconstitutional. Plaintiff
has presented evidence (and Defendant’s statement of material facts does not
contradict) that Judge Patten issued the warrant for Plaintiff s arrest based on her
failure to pay a fine without inquiring as to the reasons why she did not pay, making
11

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 13 of 17

contrary to the jurisdictional limits of his authority, the warrant “is void” and
equivalent to ‘“no warrant at all.’” Id. (quoting U.S. v. Krueger, 809 F.3d 1109,
1124 (10th Cir. 2015) (Gorsuch, J., concurring)); see also U.S. v. Baker, 894 F.2d
1144, 1146 (10th Cir. 1990) (warrant authorizing a search on land belonging to the
Southern Ute tribe was void because it was “beyond the issuing state court’s
jurisdiction”); Wilson v. Grant. 3:06-CV-67-JTC, 2009 WL 10702061, at *4
(N.D. Ga. Feb. 12, 2009) (an arrest warrant flowing from an unconstitutional law or
reason is invalid). Because Judge Patten was not authorized by either the United
States Constitution or the Georgia Constitution to issue the warrant, the warrant
exceeded his jurisdictional authority, and the warrant was void.
As the Georgia Court of Appeals holds, “[a]n action for false imprisonment
will lie where a person is unlawfully detained under a void process, or under no
process at all.” Ridgeview Inst.. 481 S.E.2d at 533 (citation and internal quotation
marks omitted). Accordingly, the void nature of the underlying warrant permits
Plaintiffs claim for false imprisonment.
B.

Effect of the Void Warrant on Plaintiffs Claim for False
Imprisonment

Having determined that the warrant is void, the Court next addresses whether
Plaintiffs claim survives summary judgment. The trouble for Plaintiffs false
imprisonment claim arises upon considering who is liable for her wrongful arrest
and detention. As explained above, the Court agrees with Plaintiff that her arrest
13

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 15 of 17

procured the warrant” (or “judicial officer”) and the “officer who executed the
warrant”—neither of whom are currently defendants in this case. Id. Thus, Plaintiff
contends the Defendant City should be held vicariously liable for any purported bad
faith she may be able to prove against Judge Patten. [Doc. 118 at 8]. Again, the
Court arrives at the inquiry of who is potentially liable for the false imprisonment of
Plaintiff.
Upon review of Plaintiffs appeal, the Eleventh Circuit upheld summary
judgment on Plaintiffs § 1983 claims because “Chief Judge Patten was acting on
behalf of the state when he presided,.. . signed [the] warrant for [Plaintiffs] arrest,
issued a $100 ‘contempt charge’ for her failure to pay the fine, and ordered her to
serve the 60-day sentence that had been suspended.” [Doc. 108 at 16.] While the
Eleventh Circuit pointed out that “[t]he Georgia tort of false imprisonment does not
require the sort of municipal liability analysis mandated under § 1983[,]” its opinion
also stated clearly that “Chief Judge Patten was acting on behalf of the state, and not
on behalf of the City, when he took the actions complained of in the course of
adjudicating [Plaintiffs] state-law misdemeanor offense.” [Id. at 19, 21]. As this
Court found in its previous Order, these “actions complained of’ include: “jailing
[Plaintiff] without determining if she willfully failed to pay, failing to provide
counsel, issuing the arrest warrant, revoking the suspended sentence, failing to
present Plaintiff to a judicial officer within 72 hours, and falsely imprisoning
15

Case l:15-cv-00607-ELR Document 126 Filed 07/22/20 Page 17 of 17

SO ORDERED, this

zjKday of July, 2020.

Eleanor L. Ross
United States District Judge
Northern District of Georgia

17

APPENDIX

I

Case: 18-11060

Date Filed: 02/11/2020

Page: 1 of 33
[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-11060
D.C. Docket No. l:15-cv-00607-ELR

ZIAHONNA TEAGAN,
Plaintiff-Appellant,
versus
THE CITY OF MCDONOUGH, GEORGIA,
Defendant-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia
(February 11,2020)
Before JORDAN, TJOFLAT and ANDERSON, Circuit Judges.
PER CURIAM:

Case: 18-11060

Date Filed: 02/11/2020

Page: 2 of 33

Ziahonna Teagan sued the City of McDonough, Georgia, for claims related to
her misdemeanor proceedings in municipal court for failure to maintain automobile
liability insurance as required by Georgia law. She asserted federal claims under 42
U.S.C. § 1983 for violations of her Fourth, Sixth, and Fourteenth Amendment rights,
and a state-law claim under Georgia law for false imprisonment. The district court
granted summary judgment in favor of the City, ruling that the actions of the
municipal court could not be attributed to the City so as to impose § 1983 municipal
liability under Monell v. Department of Social Services, 436 U.S. 658 (1978), and
its progeny.
We affirm the district court’s grant of summary judgment on Ms. Teagan’s
§ 1983 claims. The McDonough municipal court was exercising its judicial power
under Georgia law to adjudicate a state-law offense—and not a violation of a city or
county ordinance—and therefore was not acting on behalf of the City when it took
the actions that Ms. Teagan complains of.
But we do not affirm the final judgment in favor of the City. The district court
did not address Ms. Teagan’s separate state-law claim for false imprisonment, so we
remand for further proceedings on that claim.
I
This case is primarily about federal law, specifically the principles for
imposing municipal liability under § 1983 pursuant to Monell.
2

Yet, as we have

Case: 18-11060

Date Filed: 02/11/2020

Page: 3 of 33

explained a number of times, whether an individual or entity acts on behalf of a
municipality or the state generally turns on an analysis of state law. See, e.g., Owens
v. Fulton Cty877 F.2d 947,950 (11th Cir. 1989). So before we get to the facts, we
set out a bit of background on municipal courts in Georgia to provide context for
Ms. Teagan’s claims.
Municipal courts in Georgia are generally creatures of local government. See
Ga. Code Ann. § 36-32-l(a).

But municipal courts also have jurisdiction to

adjudicate state-law misdemeanor traffic offenses pursuant to Georgia Code § 4013-21(a)-(b) if the defendant waives his or her right to a jury trial. See Kolker v.
State, 391 S.E.2d 391, 393-94 (Ga. 1990) (holding that Article VI, § 1, f 1 of the
Georgia Constitution “authorizes the General Assembly to vest municipal courts
with jurisdiction over state misdemeanor offenses”)- As the Georgia Supreme Court
has explained: “The [Georgia] General Assembly’s exercise of its constitutional
authority to enact legislation vesting municipal courts with jurisdiction over various
state misdemeanor offenses... imbues the municipal court with limited state judicial
power when it tries a defendant for violation of the state misdemeanors the General
Assembly has placed within its jurisdiction.” Nguyen v. State, 651 S.E.2d 681, 684
(Ga. 2007), overruled on other grounds by Brown v. Crawford, 715 S.E.2d 132 (Ga.
2011).

3

Case: 18-11060

Date Filed: 02/11/2020

Page: 4 of 33

In Georgia, the failure to maintain automobile liability insurance constitutes a
state-law misdemeanor. That offense is punishable by a fine of between $200 and
$ 1,000 and/or a term of imprisonment of up to 12 months. See Ga. Code Ann. § 406-10(a)(4).
A
On November 7, 2013, an officer cited Ms. Teagan for failure to maintain
automobile liability insurance, which as noted is a misdemeanor under Georgia law.
Approximately six weeks later, she appeared before a judge in the McDonough
municipal court for arraignment.
Ms. Teagan was one of several defendants present in the courtroom for
arraignment that day. The judge collectively read to the entire group a statement
advising them of their constitutional rights, including the right to a jury trial, the
right to counsel, and the right to request court-appointed counsel. The judge further
advised that anyone who did not understand could request clarification. He did not,
however, conduct an individual colloquy with Ms. Teagan regarding her rights. Nor
did she waive those rights, orally or in writing, at the arraignment.
When her case was called, Ms. Teagan pleaded not guilty and orally advised
the judge that she wanted a bench trial. She also requested a continuance of her trial,
informing the court clerk that the continuance would allow her sufficient time to
obtain an attorney.
4

Case: 18-11060

Date Filed: 02/11/2020

Page: 5 of 33

On March 19, 2014, Ms. Teagan appeared at her bench trial before Donald
Patten, the Chief Judge of the McDonough municipal court. She was not represented
by counsel. Just before the trial commenced, the bailiff instructed her to initial and
sign a form titled “Jury Trial Waiver.” This form purported to waive her right to a
jury trial as well as her right to counsel. Chief Judge Patten also signed the form,
attesting that Ms. Teagan had knowingly and willingly waived her right to a jury
trial.

But he conducted no additional inquiry of Ms. Teagan regarding her

understanding of the form or the voluntariness of her waivers.
Proceeding pro se, Ms. Teagan cross-examined the officer who issued the
citation and who had testified for the state. She also testified on her own behalf,
conceding that she had been driving without insurance. Chief Judge Patten found
her guilty of driving without insurance and imposed a fine of $745, as well as a $50
penalty for being late to court.
Ms. Teagan informed Chief Judge Patten that she was unable to pay the fine
that day, but that she would be able to do so by the following Friday—March 28,
2014. Chief Judge Patten then sentenced her to 60 days in jail, suspended on the
condition that she pay the $795 fine by March 28.
B
On March 24, Ms. Teagan—again proceeding pro se—filed a “Motion for
Stay Pending Appeal” with the municipal court, requesting the court to “grant a Stay
5

Case: 18-11060

Date Filed: 02/11/2020

Page: 6 of 33

of [the] Court’s Order dated March 14, 2014 pending appellate review[.]” Chief
Judge Patten reviewed the filing and determined that it was not in the proper form
to serve as a valid motion for appeal, but took no action beyond instructing the
deputy clerk to place it in Ms. Teagan’s court file. No one at the municipal court
notified Ms. Teagan that her motion had effectively been denied.
When Ms. Teagan was unable to pay the $795 fine by March 28, the municipal
court clerk prepared an application for an arrest warrant. Chief Judge Patten then
executed and issued the warrant at the same time, imposing an additional $100
“contempt charge.”
Pursuant to the warrant, a deputy from the Henry County Sheriff s Office
arrested Ms. Teagan at her home on May 18, 2014, in front of her family and
neighbors.

She was taken directly to the Henry County Jail, where she was

photographed, fingerprinted, and issued a jail uniform.
Under Georgia law, Ms. Teagan should have been taken before a municipal
court judge “within 72 hours” of her arrest. See Ga. Code Ann. § 17-4-26; Ga. Unif.
Mun. Ct. R. 20.1 (Dec. 2011); Tidwell v. Paxton, 651 S.E.2d 714, 715 (Ga. 2007).
Yet she stayed in jail for 10 days—housed in a two-person cell with other inmates,

6

Case: 18-11060

Date Filed: 02/11/2020

Page: 7 of 33

including some awaiting trial on felony charges—until she was again brought before
Chief Judge Patten on May 28,2014. i
At her appearance on May 28, Chief Judge Patten explained to Ms. Teagan—
who was again without counsel—that she had been incarcerated for her failure to
pay her fine by the agreed-upon March 28 deadline, and that she was therefore
subject to the previously suspended 60-day jail sentence. Chief Judge Patten did not
inquire into why Ms. Teagan had failed to pay the fine or whether she had the ability
to pay it. At the conclusion of the appearance, Chief Judge Patten ordered Ms.
Teagan to be returned to the Henry County Jail to serve the remainder of her 60-day
sentence.2
The following day, Ms. Teagan’s brother wrote a check to the Henry County
Sheriff for $895 to pay for Ms. Teagan’s initial fine and the $100 “contempt charge.”
To be able to satisfy the fine, her brother drew from the government benefits of Ms.
Teagan’s daughter, his own government benefits, and their rent money. The Sheriff
transferred the money to the City, and Ms. Teagan was released on May 30,2014.
1 The purpose of Ms. Teagan’s May 28 appearance before Chief Judge Patten is unclear. At his
deposition, Chief Judge Patten testified that he could not remember why Ms. Teagan was brought
before the municipal court at that time. The appearance was well after the 72-hour time frame
required by Georgia law, and Chief Judge Patten explained that it was not his normal procedure to
order someone into court from the jail, unless it was specifically requested or warranted under
other special circumstances.
2 Ms. Teagan explained at her deposition that, at the time of the trial, she had intended to secure a
loan to pay the fine by the March 28 deadline. She had stopped working in February, however,
and learned only after the trial that she would be unable to secure a loan without proof of
employment. She therefore filed a motion to stay pending appeal.
7

Case: 18-11060

Date Filed: 02/11/2020

Page: 8 of 33

C

In early 2015, Ms. Teagan sued the City of McDonough in federal court. In
her operative complaint, she asserted federal claims under § 1983 for violations of
her Fourth, Sixth, and Fourteenth Amendment rights, and a state-law claim for false
imprisonment. Specifically, she alleged that the McDonough municipal court (1)
violated her Due Process and Equal Protection rights by imprisoning her without
determining the willfulness of her failure to pay or her ability to pay; (2) ran afoul
of the Sixth Amendment by failing to secure a proper, individual waiver of counsel
from her and by failing to appoint counsel; (3) violated the Fourth Amendment by
executing and issuing an invalid arrest warrant unsupported by probable cause; (4)
failed to conduct a preliminary revocation hearing to determine whether she had
failed to comply with a condition of her suspended sentence; (5) failed to bring her
before a judicial officer within 72 hours of her arrest and incarceration, as required
by Georgia law; and (6) falsely imprisoned her in violation of Georgia Code §51-720.

Both parties moved for summary judgment, which the district court granted
in favor of the City. The district court ruled that all of the actions alleged in Ms.
Teagan’s complaint were taken by the McDonough municipal court pursuant to its
authority to act with “limited state judicial power” to enforce state misdemeanor
laws under Georgia Code § 36-32-l(a) (granting municipal courts “jurisdiction over
8

Case: 18-11060

Date Filed: 02/11/2020

Page: 9 of 33

the violation of municipal ordinances and over such other matters as are by general
law made subject to the jurisdiction of municipal courts”). The district court relied
on the Georgia Supreme Court’s decision in Nguyen, 651 S.E.2d at 684, which
explained that the General Assembly, as permitted by the Georgia Constitution, has
given municipal courts “limited state judicial power” to try a defendant for the
violation of certain state misdemeanor offenses. Because the municipal court was
not acting on behalf of the City, the district court concluded that the City could not
be held liable under § 1983 pursuant to Monell and its progeny. The district court,
however, did not separately address Ms. Teagan’s state-law false imprisonment
claim.
II
Our review of the district court’s summary judgment order is plenary. See,
e.g., Jones v. Firestone Tire & Rubber Co977 F.2d 527, 535 (11th Cir. 1992).
Summary judgment is appropriate if the record shows that there are no genuine
issues of material fact and that the moving party is entitled to judgment as a matter
of law. See, e.g, Eberhardtv. Waters, 901 F.2d 1578, 1580 (11th Cir. 1990). As
the parties have raised no disputes over the material facts, this appeal concerns only
questions of law.

9

Case: 18-11060

Date Filed: 02/11/2020

Page: 10 of 33

A
“Municipal liability under § 1983 is incurred only where ‘a deliberate choice
to follow a course of action is made from among various alternatives by the official
or officials responsible for establishing final policy with respect to the subject matter
in question.’” Owens, 877 F.2d at 949-50 (citation omitted). To prove municipal
liability under § 1983, a plaintiff “must show that the local government entity . . .
has authority and responsibility over the governmental function at issue[.]” Grech
v. Clayton Cty., 335 F.3d 1326, 1330 (11th Cir. 2003) (en banc). With respect to
Ms. Teagan’s § 1983 claims against the City, therefore, the critical and threshold
question is whether the McDonough municipal court, through Chief Judge Patten,
was acting on behalf of the City when it took the actions which form the basis for
the constitutional violations alleged by Ms. Teagan. If it was not, the City cannot be
held liable under § 1983. SeeMcMillian v. Johnson, 88 F.3d 1573, 1578 (11th Cir.
1996) (“A threshold question ... is whether the official is going about the local
government’s business. If the official’s actions do not fall within an area of the local
government’s business, then the official’s actions are not acts of the local
government.”), affd sub nom. McMillian v. Monroe Cty., 520 U.S. 781 (1997).
Whether an official or entity acts on behalf of a municipality or the state “in a
particular area, or on a particular issue,” is—labels aside—a federal question that is
“dependent on an analysis of state law.” McMillian, 520 U.S. at 786. See also
10

Case: 18-11060

Date Filed: 02/11/2020

Page: 11 of 33

Grech, 335 F.3d at 1330. Although we have not yet addressed this question with
respect to municipal courts in Georgia, our decision in Familias Unidas v. Briscoe,
619 F.2d 391 (5th Cir. 1980), provides a critical starting point.
In Familias Unidas, a Texas county judge in Medina County, acting pursuant
to the request of a local school district, ordered an organization of MexicanAmerican students and adults to disclose its members. See id. at 396. The judge did
so pursuant to state law, specifically § 4.28 of the Texas Education Code. See id. at
396-97. The organization and one of its members then filed suit in federal court
against the former Texas governor, the county court judge, and the superintendent
and members of the board of trustees of the school district (all in their individual and
official capacities). See id. at 394-95, 397. The plaintiffs sought a declaration that
§ 4.28 was unconstitutional, an injunction against its implementation, and damages
for the members of the organization as a class. See id. at 397.
We ultimately concluded that § 4.28 violated the First Amendment, and ruled
that the individual plaintiff was entitled to an award of nominal damages not to
exceed one dollar “based on the instant application of the unconstitutional statute
and the resultant infringement of her First Amendment right of association.” Id. at
402. We then turned to the question of “who shall be required to pay this award.”
Id. at 403.

11

Case: 18-11060

Date Filed: 02/11/2020

Page: 12 of 33

As relevant here, we surveyed Texas law and held that the county judge’s
compliance with the school district’s request and issuance of the disclosure demand
did not “represent ] the official policy” of the county. Id. at 404. Recognizing that
a county judge could act in ways that might constitute county policy (e.g., the
performance of certain administrative duties), we explained that “the narrow
authority delegated to the county judge in [§] 4.28 . . . bears no relation to his
traditional role in the administration of county government or the discretionary
powers delegated to him by state statute in aid of that role.” Id. “Instead,” we
continued, “his duty in implementing [§] 4.28, much like that of a county sheriff
enforcing a state law, may more fairly be characterized as the effectuation of the
policy of the State of Texas embodied in that statute, for which the citizens of a
particular county should not bear singular responsibility. Accordingly, under the
standards set forth in Monell we hold that Medina County is not susceptible to
liability under [§] 1983 for [the county judge’s] issuance of the disclosure demands.”
Id.
B
“The practical test articulated in Familias Unidas ... is whether the
decisionmaker, by virtue of his official conduct, serves as the ‘final authority or
ultimate repository of county power.’” Owens, 877 F.2d at 950 (quoting Familias
Unidas, 619 F.3d at 404). The narrow question here is whether under Georgia law
12

Case: 18-11060

Date Filed: 02/11/2020

Page: 13 of 33

the McDonough municipal court, through Chief Judge Patten, acted on behalf of the
state or the City when adjudicating Ms. Teagan’s state-law misdemeanor offense.
As we explain, we conclude that Chief Judge Patten acted on behalf of the state
because he was exercising his authority under state law to preside over a state
misdemeanor offense.3
Familias Unidas generally teaches that a county or municipal court judge acts
on behalf of the state, and not on behalf of the municipality, when he engages in
judicial acts for the purpose of applying or enforcing a state law. See Lucas v.
O’Loughlin, 831 F.2d232, 235 (11th Cir. 1987) (“The Court [in Familias Unidas]
found that the action of the state judge upon which the plaintiff sought to bind the
county was an act of the judge mandated by a state statute, rather than one of the
functions normal to the operation of a county judge. The plaintiff, therefore, lost on
his contention that the county should be liable.”). Familias Unidas was, of course,

3 Because this case does not present the question, we leave for another day whether a municipal
court judge acts on behalf of a municipality when he or she exercises judicial authority with respect
to local ordinances enacted by the municipality. Compare Walker v. City of Calhoun, 901 F.3d
1245, 1256 (11th Cir. 2018) (concluding, at the preliminary injunction stage, that a Georgia
municipal court acted on behalf of the city in setting bail policy, and therefore was not immune
from § 1983 liability in an indigent arrestee’s class action lawsuit challenging the court’s standing
bail order); ODonnell v. Harris Cty., 892 F.3d 147, 155—56 (5th Cir. 2018) (holding that a county
judge was a policymaker for the county in establishing an “unwritten, countywide process for
setting bail that violated both state law and the Constitution”); Anela v. City of Wildwood, 790 F.2d
1063,1066-67 (3d Cir. 1986) (holding that a municipal court judge’s “cash bail schedule,” which
failed to comply with a state supreme court rule, constituted a municipal practice for which the
city could be held liable under Monell).
13

Case: 18-11060

Date Filed: 02/11/2020

Page: 14 of 33

based on an examination of Texas law, so it is not controlling. But an analysis of
Georgia law leads to the same result as in Familias Unidas4
Ms. Teagan correctly points out that municipal courts in Georgia are generally
creatures of local government—Georgia law, after all, gives municipalities the
power to create municipal courts, appoint judges to those courts, and fix their
compensation. See, e.g., Ga. Code Ann. §§ 36-32-l(a)&36-32-2(a). And the judges
of the McDonough municipal court may be removed from office by the mayor and
city council. See McDonough City Charter, Art. IV, § 4-11(d). But the question
here is not whether municipal courts in Georgia should be generally viewed as state
or municipal actors. It is, instead, is a more narrow one: whether municipal courts
in Georgia act on behalf of the state or on behalf of the municipality when they
adjudicate misdemeanor offenses under state law. See McMillian, 520 U.S. at 78586 (“Thus, we are not seeking to make a characterization of Alabama sheriffs that
will hold true for every type of official action they engage in. We simply ask whether
Sheriff Tate represents the State or the county when he acts in a law enforcement
capacity.”).

4 We note—without passing on or endorsing their rationales—that a number of circuits have come
to the same conclusion with respect to municipal or local courts adjudicating state-law offenses.
See, e.g., Eggarv. City ofLivingston, 40 F.3d 312, 314-15 (9th Cir. 1994) (Montana); Johnson v.
Moore, 958 F.2d 92, 93-94 (5th Cir. 1992) (Mississippi).
14

Case: 18-11060

Date Filed: 02/11/2020

Page: 15 of 33

Although the Georgia Supreme Court has sometimes characterized municipal
courts as municipal bodies “discharging strictly municipal functions,” Ward v. City
of Cairo, 583 S.E. 2d 821, 823 (Ga. 2003), such a definitive across-the-board
classification is not accurate. As noted earlier, municipal courts in Georgia have
jurisdiction to adjudicate state-law misdemeanor traffic offenses pursuant to Georgia
Code § 40-13-21(a)-(b). SeeKolker, 391 S.E.2dat 393 (holding that Article VI, § 1,
^ 1 of the Georgia Constitution “authorizes the General Assembly to vest municipal
courts with jurisdiction over state misdemeanor offenses”). See also Ga. Code Ann.
§ 36-32-3 (“All judges of all municipal courts in this state shall have and are given
the same powers and authorities as magistrates in the matter of and pertaining to
criminal cases of whatever nature in the several courts of this state.”). The Georgia
Supreme Court has explained that the “General Assembly’s exercise of its
constitutional authority to enact legislation vesting municipal courts with
jurisdiction over various state misdemeanor offenses ... imbues the municipal court
with limited statejudicial power when it tries a defendant for violations of the state
misdemeanors the General Assembly has placed within its jurisdiction.” Nguyen,
651 S.E.2d at 684 (emphasis added).
Ms. Teagan was charged with driving without insurance, which constitutes a
state-law misdemeanor offense. See Ga. Code Ann. § 40-6-10(a). Under Georgia
law and the rationale of Familias Unidas, Chief Judge Patten was acting on behalf
15

Case: 18-11060

Date Filed: 02/11/2020

Page: 16 of 33

of the state when he presided over her case, found her guilty, sentenced her, signed
a warrant for her arrest, issued a $100 “contempt charge” for her failure to pay the
fine, and ordered her to serve the 60-day sentence that had been suspended. See
Familias Unidas, 619 F.2d at 404. And because a conviction in a Georgia municipal
court for a state-law misdemeanor traffic offense is appealable to the superior court,
see Ga. Code Ann. § 40-13-28, we cannot say that under Georgia law the City had
“control over” Chief Judge Patten or the McDonough municipal court with respect
to the adjudication of Ms. Teagan’s state-law misdemeanor traffic offense. See
McMillian, 520 U.S. at 785 (“Our cases on the liability of local governments under
§ 1983 instruct us to ask whether governmental officials are final policymakers for
the local government in a particular area, or a particular issue.”); Grech, 335 F.3d
at 1332 (“[T]he appropriate § 1983 inquiry under federal law is whether... Clayton
County, under Georgia law, has control over the Sheriff in his law enforcement
function, particularly for the entry and validation of warrants . . . and the training
and supervision of his employees in that regard.”). We therefore affirm the district
court’s grant of summary judgment to the City on Ms. Teagan’s § 1983 claims.
C
In his concurrence, Judge Tjoflat concludes that Ms. Teagan’s § 1983 claims
are barred by Heck v. Humphrey, 512 U.S. 477 (1994). Having already affirmed the

16

Case: 18-11060

Date Filed: 02/11/2020

Page: 17 of 33

grant of summary judgment in favor of the City on the § 1983 claims, we need not
address the applicability of Heck.
First, the Supreme Court’s own language suggests that Heck deprives the
plaintiff of a cause of action—not that it deprives a court of jurisdiction. See id. at
489 (“We do not engraft an exhaustion requirement upon § 1983, but rather deny the
existence of a cause of action.... Just as a cause of action for malicious prosecution
does not accrue until the criminal proceedings have terminated in the plaintiff s favor
... so also a § 1983 cause of action for damages attributable to an unconstitutional
conviction or sentence does not accrue until the conviction or sentence has been
invalidated.”). As a result, some of our sister circuits have concluded that Heck is
an affirmative defense and not a jurisdictional rule. See, e.g., Carr v. O’Leary, 167
F.3d 1124, 1126 (7th Cir. 1999) (“The failure to plead the Heck defense in a timely
fashion was a waiver[.]”); Washington v. Los Angeles Cty. Sheriffs Dep % 833 F.3d
1048, 1056 (9th Cir. 2016) (“[Compliance with Heck most closely resembles the
mandatory administrative exhaustion of PLRA claims, which constitutes an
affirmative defense and not a pleading requirement.”). We have not definitively
answered that question. See Dixon v. Hodges, 887 F.3d 1235, 1237-40 (11th Cir.
2018) (describing Heck in dicta as “stripping] a district court of jurisdiction,” but
reversing the district court’s dismissal based on Heck without directly addressing
whether Heck is jurisdictional); Topa v. Melendez, 739 F. App’x 516, 518 & n.l
17

Case: 18-11060

Date Filed: 02/11/2020

Page: 18 of 33

(11th Cir. 2018) (noting that “other circuits have treated Heck as an affirmative
defense subject to waiver”).
Second, there is an open question as to whether Heck applies to situations
where, as here, a § 1983 plaintiff may no longer seek habeas relief because she is no
longer in custody.

See Muhammad v. Close, 540 U.S. 749, 752 n.2 (2004)

(“Members of the Court have expressed the view that unavailability of habeas for
other reasons may also dispense with the Heck requirement. . . . This case is no
occasion to settle the issue.”). It is unclear whether Heck would apply here, as the
length of imprisonment was so short “that a petition for habeas relief could not have
been filed and granted while [Ms. Teagan] was unlawfully in custody.” Morrow v.
Fed. Bureau ofPrisons, 610 F.3d 1271, 1272 (11th Cir. 2010). See also id. at 1273
(Anderson, J., concurring) (“[Sjeveral circuits have recognized an exception from
the Heck favorable termination requirement for plaintiffs no longer in custody that
were precluded from obtaining habeas relief.”).
Ill
That leaves Ms. Teagan’s false imprisonment claim under Georgia Code § 517-20. We conclude that the district court erred in not separately addressing that
claim, and remand for further proceedings. See, e.g., Stillman v. Travelers Ins. Co.,
88 F.3d 911, 914 (11th Cir. 1996) (district court erred in granting final, rather than
partial, summary judgment where other issues and defenses should have survived
18

Case: 18-11060

Date Filed: 02/11/2020

Page: 19 of 33

and the summary judgment order “did not even purport to adjudicate [a party’s]
other affirmative defenses”).
After ruling that the City could not be liable under § 1983 for the actions of
Chief Judge Patten or the McDonough municipal court, the district court stated in a
footnote that it did not need to address the parties’ other arguments. See D.E. 96 at
9 n.2. Insofar as the district court meant to say that it did not need to consider the
City’s other arguments for rejecting Ms. Teagan’s § 1983 claims, it was correct. But
if the district court believed that its Monell municipal liability ruling necessarily
disposed of Ms. Teagan’s state-law false imprisonment claim, it was mistaken. The
Georgia tort of false imprisonment does not require the sort of municipal liability
analysis mandated under § 1983.
False imprisonment in Georgia requires a showing of “the unlawful detention
of the person of another, for any length of time, whereby such person is deprived of
his personal liberty.” Ga. Code Ann. § 51-7-20. The “only essential elements [of
false imprisonment] are the arrest or detention and the unlawfulness thereof.” Miller
v. Grand Union Co., 552 S.E. 2d 491,494 (Ga. Ct. App. 2001) (citations omitted).
The City urges us to resolve the false imprisonment claim on the merits and
argues that it fails because Ms. Teagan was arrested on a “warrant which was
properly issued” by Chief Judge Patten. See Appellee’s Br. at 29 (citing Carruth v.

19

Case: 18-11060

Date Filed: 02/11/2020

Page: 20 of 33

Roberts, 375 S.E.2d 499, 501-02 (Ga. Ct. App. 1988)). We decline the City’s
invitation to address the merits for the following reason.
Ms. Teagan contends that the City, through Chief Judge Patten, committed
the tort of false imprisonment when it arrested her on a facially invalid warrant and
without a finding that she had willfully failed to pay the fine. See Appellant’s Br. at
29-30. For example, she asserts that there is no such thing as an offense for “failure
to pay a fine” under state law or under the City’s ordinances. See id. at 29. And if
there was no such offense, she continues, there could not be any probable cause for
her arrest. See id. Because there are some Georgia cases suggesting that the
invalidity of a warrant may permit a false imprisonment claim, we think it is best for
the district court to consider that claim in the first instance. See, e.g., Franklin v.
Consol Gov’t ofColumbus, 512 S.E.2d 352,355 (Ga. Ct. App. 1999) (rejecting false
imprisonment claim because arrest was based on a warrant and “there [wa]s no
evidence of invalid process”); Ridgeview Inst., Inc. v. Handley, 481 S.E.2d 531,533
(Ga. Ct. App. 1997) (“An action for false imprisonment will lie where a person is
unlawfully detained under a void process, or under no process at all, and can not be
maintained where the process is valid[.]”) (citation and internal quotation marks
omitted); Stephens v. Big Apple Supermkts. ofRome, Inc., 204 S.E.2d 805, 806 (Ga.
Ct. App. 1974) (“As the district attorney’s affidavit demonstrates that the arrests
complained of were founded upon warrants, and as there is no allegation that the
20

Case: 18-11060

Date Filed: 02/11/2020

Page: 21 of 33

warrants are not valid, there was no error in granting defendants’ motion for
summary judgment on the false imprisonment averments.”).
IV
We are deeply troubled by what happened to Ms. Teagan in the McDonough
municipal court. She, like all other citizens of that City, deserved better. But given
Georgia law and the rationale of our decision in Familias Unidas, Chief Judge Patten
was acting on behalf of the state, and not on behalf of the City, when he took the
actions complained of in the course of adjudicating Ms. Teagan’s state-law
misdemeanor offense. We therefore affirm the district court’s grant of summary
judgment to the City on Ms. Teagan’s § 1983 claims.
With respect to Ms. Teagan’s state-law false imprisonment claim, the district
court erred by not separately addressing it. As a result, we reverse the grant of
summary judgment on that claim and remand for further proceedings.
AFFIRMED IN PART, REVERSED IN PART, AND REMANDED.

21

Case: 18-11060

Date Filed: 02/11/2020

Page: 22 of 33

JORDAN, Circuit Judge, concurring:
I join the court’s opinion. The City of McDonough cannot be held liable under
42 U.S.C. § 1983 because the municipal court was not acting on its behalf when
adjudicating Ms. Teagan’s state-law misdemeanor for failing to maintain automobile
liability insurance.
I write separately, however, to express my concern that the McDonough
municipal court acted unconstitutionally by jailing Ms. Teagan for failing to pay a
fine without determining whether her failure to pay was willful. This practice, which
does not appear to be isolated throughout municipal courts in Georgia, flouts the
venerable and long-standing principle that debtors’ prisons are unconstitutional.
*******

“There can be no equal justice where the kind of trial a man gets depends on
the amount of money he has.” Griffin v. Illinois, 351 U.S. 12, 19 (1956). Based on
this understanding, the Supreme Court held in Bearden v. Georgia, 461 U.S. 660,
672-73 (1983), that revoking an indigent defendant’s probation for failure to pay a
fine, without inquiring into the reasons for the failure to pay, violates the
“fundamental fairness required by the Fourteenth Amendment.”

The Court

explained that if “the probationer has willfully refused to pay the fine . . . when he
has the means to pay,” or “fail[ed] to make sufficient bona fide efforts to seek
employment or borrow money in order to pay the fine,” then imprisonment may be
22

Case: 18-11060

Date Filed: 02/11/2020

Page: 23 of 33

justified. See id. at 668. “But if the probationer has made all reasonable efforts to
pay the fine or restitution, and yet cannot do so through no fault of his own, it is
fundamentally unfair to revoke probation automatically without considering whether
adequate alternative methods of punishing a defendant are available.” Id. at 66869. “Only if alternate measures are not adequate to meet the State’s interests in
punishment and deterrence may the court imprison a probationer who has made
sufficient bona fide efforts to pay.” Id. at 672.
Bearden was based on two earlier Supreme Court cases, Williams v. Illinois,
399 U.S. 235 (1970), and Tate v. Short, 401 U.S. 395 (1971)—both of which prohibit
jailing a criminal defendant “solely because of his indigency.” Tate, 401 U.S. at
398. See also Williams, 399 U.S. at 242. In Williams, the Court held that a defendant
could not be imprisoned for longer than the statutory maximum for his offense based
on his inability to pay a fine or court costs. See 399 U.S. at 239-41. In Tate, the
defendant was initially fined for traffic offenses, but when he was unable to pay the
fines, he was committed to a municipal prison. See 401 U.S. at 396-97. The Court
held that “the Constitution prohibits the State from imposing a fine as a sentence and
then automatically converting it into a jail term solely because the defendant is
indigent and cannot forthwith pay the fine in full.” Id. at 398.
Many decades ago, the former Fifth Circuit likewise “accepted] the principle
that imprisonment solely because of indigent status is invidious discrimination and
23

Case: 18-11060

Date Filed: 02/11/2020

Page: 24 of 33

not constitutionally permissible.” Pugh v. Rainwater, 572 F.2d 1053,1056 (5th Cir.
1978) (en banc). It has also held that imposing an alternative sentence “requiring an
indigent defendant to pay a fine forthwith or serve a specified number of days in
jail” is unconstitutional. See Frazier v. Jordan, 457 F.2d 726, 726-730 (5th Cir.
1972). We, of course, are bound by Bearden, Frazier and Rainwater. See, e.g
Walker v. City of Calhoun, 901 F.3d 1245,1259 (11th Cir. 2018) (applying Bearden
and Rainwater).
Georgia courts have also repeatedly applied Bearden. See, e.g., Massey v.
Meadows, 321 S.E.2d 703, 704 (Ga. 1984) (“[A] defendant’s probation may not be
revoked or withheld because of his failure to pay the fine without a showing of
willfulness on his part or inadequacy of alternative punishments.”); Gaither v.
Inman, 322 S.E.2d 242, 243 (Ga. 1984) (applying Bearden and Massey to a
conditionally suspended sentence); Johnson v. State, 707 S.E.2d 373, 375 (Ga. Ct.
App. 2011) (holding that the defendant’s probation could not be revoked for failing
to pay court-ordered fines and fees without the trial court first making a finding as
to willfulness, even though the defendant entered a negotiated plea, because the court
unilaterally imposed the fines).

In addition, Georgia’s own constitution bans

debtors’ prisons. See Ga. Const, art. 1, § 1, para. XXIII (“There shall be no
imprisonment for debt.”). See also Messenger v. State, 72 S.E.2d 460, 461 (Ga.
1952) (explaining that the Georgia Constitution “commands the three departments
24

Case: 18-11060

Date Filed: 02/11/2020

Page: 25 of 33

of the government... to refrain from imprisoning a single person for debt.”). And
long-standing Georgia precedent makes clear that municipal courts cannot use
imprisonment to coerce the payment of a fine. See Brieswick v. City of Brunswick,
51 Ga. 639, 642-43 (1874) (holding that a municipal court did not have the power
or authority to “coerce the payment of the fine imposed by imprisonment”). What
happened to Ms. Teagan is therefore impossible to defend and difficult to
understand.
*******

As set forth in the court’s opinion, Chief Judge Donald Patten of the
McDonough municipal court found Ms. Teagan guilty of driving without insurance
and imposed a $745 fine, as well as a $50 penalty for being late to court. Ms. Teagan
informed Chief Judge Patten that she was unable to pay the fine that day, but that
she would be able to do so by the following Friday, March 28,2014. After learning
that Ms. Teagan could not pay her fine that day, Chief Judge Patten sentenced her to
60 days in jail, suspended on the condition that she pay the $795 fine by March 28.
This is exactly what the Supreme Court prohibited in Tate: “imposing a fine
as a sentence and then automatically converting it into a jail term solely because the
defendant is indigent and cannot forthwith pay the fine in full.” 401 U.S. at 398.
As the Supreme Court explained, “[ijmprisonment in such a case is not imposed to
further any penal objective of the State. It is imposed to augment the state’s revenues
25

Case: 18-11060

Date Filed: 02/11/2020

Page: 26 of 33

but obviously does not serve that purpose; the defendant cannot pay because he is
indigent and his imprisonment, rather than aiding collection of the revenue, saddles
the State with the cost of feeding and housing him for the period of his
imprisonment.” Id. at 399. It also contravenes Georgia’s own precedent that a
municipal court cannot coerce a fine by imprisonment. See Brieswick, 51 Ga. at
642^43.

Here, as in Tate, sentencing Ms. Teagan to jail—when Chief Judge Patten
initially was only going to impose a fine—served no legitimate penological purpose.
See 401 U.S. at 399. As suggested in Tate, it seems more likely that the suspended
jail term was imposed to coerce payment and raise City revenues, as the City profits
from the collection of fines. Ms. Teagan was convicted of failing to maintain
automobile liability insurance in violation of Georgia Code § 40-6-10. But under
Georgia law, when a municipal court tries offenses under § 40-6-10, “[a]ny fines
.. . arising from the prosecution of such cases shall be retained by the municipality
and shall be paid into the treasury of such municipality.” Ga. Code Ann. § 36-327(b). Indeed, Ms. Teagan presented evidence demonstrating that since 2012, the
McDonough municipal court has generated over $7.4 million in revenue for the City
from the payment of fines, averaging over 10 percent of the City’s general-fund
revenues for that time period. Given Ms. Teagan’s experience, one wonders how
much of that sum was secured through unconstitutional means.
26

Case: 18-11060

Date Filed: 02/11/2020

Page: 27 of 33

After Ms. Teagan did not pay the fine, she was arrested and jailed on May 18,
2014, without any hearing to determine whether her failure to pay was willful. Even
at her subsequent appearance ten days later, Chief Judge Patten made no attempt to
determine whether Ms. Teagan had the ability to pay the fine. These actions by
Chief Judge Patten directly contravened the Supreme Court’s holding in Bearden
that imprisoning a defendant for failure to pay a fine, without inquiring into the
reasons for the failure to pay or considering alternative measures, violates the
“fundamental fairness required by the Fourteenth Amendment.” 461 U.S. at 67273.

Had there been a hearing, Ms. Teagan could have shown that she did not
willfully fail to pay the fine. In her unrebutted deposition testimony, Ms. Teagan
explained that she lost her job in February of 2014, but that at the time of the bench
trial on March 19, 2014, she thought that she would be able to secure a loan to pay
the fine. When she went to obtain the loan, however, she found out that she could
not secure the loan without proof of employment.
That Ms. Teagan did not willfully fail to pay is further evidenced by the fact
that she filed a pro se “Motion for a Stay Pending Appeal” on March 24, days before
the March 28 deadline. Although Chief Judge Patten determined that the motion
was not in the proper form, he did not issue an order denying the motion. And no
one at the municipal court notified Ms. Teagan that her motion, though filed, had
27

Case: 18-11060

Date Filed: 02/11/2020

Page: 28 of 33

effectively been denied. Thus, when her fine came due on March 28, Ms. Teagan
reasonably believed that her sentence (including the payment of the fine) had been
stayed pending appellate review.
Adding further insult to injury, not only was Ms. Teagan jailed without a
hearing, but Chief Judge Patton added an additional $100 “contempt charge” to her
fine. I know of no Georgia law authorizing a municipal court to impose additional
fees against an indigent defendant as punishment for his or her failure to pay a fine.
A Georgia statute gives municipal courts the power and authority “[t]o impose fines
upon persons convicted of. . . offenses, with the alternative of other punishment
allowed by law,” e.g., ordering community service, “in the event such fines are not
paid.” See Ga. Code Ann. § 36-32-5 (emphasis added). In other words, if a person
is unable to pay a fine, the municipal court may impose “other,” or different,
punishment—not an additional fine. See American Heritage College Dictionary 967
(3d ed. 1993) (defining “other” as “[different from that or those implied or
specified”).
•k "k "ft k * * *

Ms. Teagan’s ordeal seems to exemplify a broader problem. The City of
McDonough is not the only municipality in Georgia that raises a significant portion
of its revenue from collecting fines—or that collects these fines through its
municipal court’s vigorous enforcement of traffic violations. See, e.g., Dick M.
28

Case: 18-11060

Date Filed: 02/11/2020

Page: 29 of 33

Carpenter II, Ph.D., Kyle Sweetland, & Jennifer McDonald, Inst, for Justice, The
Price of Taxation by Citation: Case Studies of Three Georgia Cities that Rely
Heavily on Fines and Fees 4-5 (2019) (examining three Georgia cities which
generate on average 14—25% of their revenues from fines and fees, and which use
municipal courts as “highly efficient revenue collectors”).
Nor is Georgia the only state where local governments collect a significant
portion of their revenues from fines. See U.S. Comm’n on Civil Rights, Targeted
Fines and Fees Against Communities of Color: Civil Rights and Constitutional
Implications 21-22 (2017) (discussing municipalities throughout the country that
receive 10% or more of their revenue from fines and fees). Some commentators
have noted that municipal courts’ aggressive enforcement of the payment of fines—
including unconstitutionally imprisoning defendants for their debt—has been on the
rise since the 2008 recession, when local governments became increasingly strapped
for funds. See, e.g., Christopher D. Hampson, The New American Debtors ’ Prison,
44 Am. J. Crim. L. 1, 8 (2017) (noting that the problem of imprisonment for debt
“has become exacerbated since the Great Recession, when many municipalities were
driven by financial need to look for alternative sources of money”); Roopal Patel &
Meghna Philip, Brennan Ctr. for Justice, Criminal Justice Debt: A Toolkitfor Action
2 (2012) (“As states have become increasingly strapped for funds, some have looked
to a most unlikely revenue source: the disproportionately poor people involved in
29

Case: 18-11060

Date Filed: 02/11/2020

Page: 30 of 33

the criminal justice system. . . . [IJncreasing numbers of states are creating new
pathways to imprisonment based solely on criminal justice debt.”).
Not surprisingly, multiple lawsuits have been filed in our Circuit challenging
these types of practices on various grounds, and in at least some cases, district courts
have denied motions to dismiss. See, e.g., Chapman v. City of Clanton, No. 2:15cv-125, 2017 WL 1508182, at *2-5 (M.D. Ala. Apr. 25, 2017) (denying in part
motion to dismiss claims that the city violated the plaintiffs’ constitutional rights by
jailing them for their inability to pay fines without inquiring as to their indigency);
Brucker v. City ofDoraviUe, 391 F. Supp. 3d 1207,1215-17 (N.D. Ga. July 9,2019)
(denying motion to dismiss the plaintiffs’ due process claim, which asserted that the
city’s reliance on fines, fees, and forfeitures created a conflict of interest for
municipal court judges, who are financially incentivized to convict defendants
appearing before them); Ray v. Judicial Corr. Servs., No. 2:12-CV-02819,2013 WL
5428360, at *15 (N.D. Ala. Sept. 26, 2013) (denying in part the city’s motion to
dismiss constitutional claims challenging fine collection practices that resulted in the
plaintiffs being jailed without an indigency determination). Some courts in other
parts of the country have likewise allowed these types of claims to proceed past the
dismissal or summary judgment stages, or even granted summary judgment in favor
of the plaintiffs. See, e.g., Alkire v. Irvings 330 F.3d 802, 816—19 (6th Cir. 2003)
(reversing the district court’s grant of summary judgment in favor of the defendants
30

Case: 18-11060

Date Filed: 02/11/2020

Page: 31 of 33

on the plaintiffs claims that his Thirteenth and Fourteenth Amendment rights were
violated when he was imprisoned for failing to pay court costs and fees without any
inquiry into his ability to pay); Font v. City of Ferguson, 107 F. Supp. 3d 1016,
1030-32 (E.D. Mo. 2015) (holding that the plaintiffs pleaded sufficient facts to state
a plausible claim that the city’s policy and practice ofjailing them for their inability
to pay fines violated the Due Process and Equal Protection Clauses); Doe v. Angelina
Cty., 733 F. Supp. 245,255-57 (E.D. Tex. 1990) (granting the plaintiffs motion for
partial summary judgment on his § 1983 due process claim against the county, which
asserted that he was unlawfully imprisoned for failing to pay a fine as a result of a
county’s policy); Kneisser v. Mclnemey, No. l:15-cv-07043-NLH-AMD, 2018 WL
1586033, at *13-14 (D.N.J. Mar. 30, 2018) (granting the plaintiffs motion for
partial summary judgment against the city on his claims that his constitutional rights
were violated by the municipal court when he was sent to jail because he was unable
to pay a fine imposed for a littering offense).
But what happened to Ms. Teagan should not be a common occurrence.
“Courts are supposed to dispense justice, not be looked upon as cash registers for
the government.” ACLU, In For a Penny: The Rise of America’s New Debtors’
Prisons 55 (2010) (citation and internal quotation marks omitted).

Jailing a

defendant for failing to pay a fine—without any determination that her failure to pay
was willful—is a flagrant violation the U.S. Constitution. See Bearden, 461 U.S. at
31

r
Case: 18-11060

Date Filed: 02/11/2020

Page: 32 of 33

668-69. A municipal court cannot shirk its duties to protect indigent defendants’
constitutional rights in order to line its city’s coffers.

32

Case: 18-11060

Date Filed: 02/11/2020

Page: 33 of 33

TJOFLAT, Circuit Judge, specially concurring:
I concur in the judgment of the Court. I write separately to state that I
believe Teagan’s 42 U.S.C. § 1983 claims are barred under Heck v. Humphrey, 512
U.S. 477, 114 S. Ct. 2364 (1994), which requires Teagan to prove that her
“conviction or sentence has been reversed on direct appeal, expunged by executive
order, declared invalid by a state tribunal authorized to make such determination,
or called into question by a federal court’s issuance of a writ of habeas corpus”
before her claims are cognizable under § 1983. Id. at 487,114 S. Ct. at 2372.
Because Teagan has not offered such proof, the City is entitled to summary
judgment on her § 1983 claims regardless of whether the actions of the municipal
court could be attributed to the City under MonelL

33

